Aug 27 OB 07:24a     Amtrak OtG-NYFO                                        21 2-630-6104               p.2




(
                    NATIO NAL RAILROAD PASSENGER CORPORATION
                                                                                                              J'
                           OFFIC E OF INSPECTOR GENE RAL
                             OFFICE OF INVESTIGATIONS
                              .INVESTIGATIVE REPORT      _
               1_ - - - - ' - - -_


             TITLE: Fraud

             CASE NUMBER: 06-09 3

              DATE OF REPORT : August 19, 2008

             REPORT PREPARED BY:                                 ~~ .
             Report of Interview: _ _ _ _ _~__
             Report of Documents: --;-_-- ::::--, _:-_ ,--
             Other Activity (Describe);    Closing Report

              BACKGROUND:
                                                                                            received
             The Office of inspector of General ("OIG"), Office of Investigation ("01"),
                                                                      Office of Inspector   Gener  al,
(,           a call from General ServIces Administration
             concerning the Inappropriate use of GSA                            cards which
                                                                                           GSA-CJIG
             assigned to Amtl'AI<'s _ Y a r d
             reported that the cards were being              various  towns  on
             _    .   Specifically, GSA   Credit Card   #                 was used
                                                           01, along with GSA,                     ,
             various gas stations on _
             investigation into the allegation. This Joint investigation delenn/ned
             credit cards used were stolen from Amtra   k  vehicles which   were left
                                                                                       that the
                                                                                      unsec  ured. i
              FINDING OF FACT S:
                                                                                                    I
                                                                                         various . gbs
              Agents conducted interviews of three gas stallon employees (at
              stations on             . During these Interviews, said employees Identified         I_
                                    (since terminated Amtral< employee) who used the GSA
                                   for the of statlqn patrons. According to the attenda~ts
              interviewed,  ."1f!II  would swipe the credit cards and receiv e half the cash
              price from the patron, and the aliendant would receive half
                                                                                        of          ;
              proceeds.
                                                                                                   I
                                                                                             Customs
              The employees of the gas stations were later arrested by Immigration s that
                                                                                         Agent
              Enforcement (ICE) OIG. The gas station attend ants told ICE
                                                e  to defrau  d GSA   by  swipin g  stolen  GSA gas
              _ w a s Involved In a schem
                                                           In  cash for  half the  dol/ar  amoun   t of
              oredlt oards and having the car owner pay                                             ed
                                                                g the  credit cards   from  unlock
(             the gas sale. _ l a t e r admitted to stealin
    Aug 27 08 07:24a        Amtrak OtG·NYFO                                   212·630·6104           p.3




                    Amtral< vehicles located in _ , and using them without authorization at
                    various stations on _        . Amtrak terminated • • • • on November 2,
                    2006,

                    Subse~_ was prosecuted by the United States Attorneys' Office
                    for the_District of                   . On October 17, 2007, _entered a
                    guilty plea to Credit Card FraLtd, in violation of 18 USC 1029 (A) (5), In Federal
                    COUit Specifically,                  guilty to defrauding the Federal Government
                    of approximately $47500, Approximately $4200 of this amount was charges on a
                    Wright Express (WEX) charge card belonging to Amtralc The plea agreement
                    with the government requires              to repay the debt to GSA.

                    OIG has issued prior reports concerning violations to Policies and Procedures of
                    GSA credit card storage in a safe and secure manner at _ , The previous
                    reports concerned theft and Inappropriate usage of GSA credit cards which were
                    not always stored securely, 01 has made prior management referrals regarding
                    this same issue,1             '.

                    The matter was referred to                                who has Issued a Letter
                    of Instruction to all Engineering             to strictly adhere to and enforce
                    Amtral<'s Policy on the fuel credit cards, In addition he has instructed his
                    managers and supervisors to conduct periodic audits of all headquarters, on all
                    shifts including weekends to ensure the polley is followed, and during the audit a
                    checl< Is to be made that all company gas cards are kept In secured locations.

                    CONCLUSIONS:

                    Based on the above information and action taken above, it Is recommended that
                    this case be closed.



                Supervisory Special Agent._--'...::...-f-'r--___         ~J. !d

                Deputy Inspector General! counsel-->e<...:;=-=4'----I~tJ~'




(
                I   Rcfcnal appended,
